APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Judgment in the United States Court
of Appeals for the Eighth Circuit
(October 23, 2019) . . . . . . . . . . . . . App. 1
Appendix B Judgment in a Criminal Case in the
United States District Court for the
Northern District of Iowa
(January 14, 2019) . . . . . . . . . . . . App. 3
Appendix C Order Accepting Magistrate Judge’s
Report and Recommendation
Regarding Defendant’s Guilty Plea in
the United States District Court for
the Northern District of Iowa
(October 18, 2017) . . . . . . . . . . . . App. 13
Appendix D R e p o r t
and Recommendation
Concerning Plea of Guilty in the
United States District Court for the
Northern District of Iowa
(October 3, 2017) . . . . . . . . . . . . . App. 17

App. 1

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 19-1187
[Filed October 23, 2019]
________________________________
United States of America
)
)
Plaintiff-Appellee
)
)
v.
)
)
Boulder Young, also known as
)
Boulder Daniel McManigal
)
Defendant-Appellant )
________________________________ )
Appeal from U.S. District Court for the
Northern District of Iowa - Sioux City
(5:17-cr-04030-LTS-1)
JUDGMENT
Before COLLOTON, GRUENDER, and SHEPHERD,
Circuit Judges.
The motion of appellee for dismissal of this appeal
is granted. The appeal is hereby dismissed. See Eighth
Circuit Rule 47A(b).

App. 2
October 23, 2019
Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
____________________________________
/s/ Michael E. Gans

App. 3

APPENDIX B
UNITED STATES DISTRICT COURT
Northern District of Iowa
Case Number: 0862 5:17CR04030-001
USM Number: 17160-029
[Filed January 14, 2019]
________________________________
UNITED STATES OF AMERICA )
)
v.
)
)
BOULDER YOUNG
)
________________________________ )
Sean W. Pickett
Defendant’s Attorney
JUDGMENT IN A CRIMINAL CASE
# ORIGINAL JUDGMENT
THE DEFENDANT:
# pleaded guilty to count(s) 1 of the Indictment filed
on May 24, 2017

App. 4
The defendant is adjudicated guilty of these offenses:
Title &
Section
21 U.S.C.
§§ 841(a)(1),
841(b)(1)(A),
and 846

Nature of Offense
Conspiracy to
Distribute 500 Grams
or More of a Mixture
or Substance
Containing a
Detectable Amount of
Methamphetamine
Which Contained 50
Grams or More of
Actual (Pure)
Methamphetamine

Offense
Count
Ended
11/03/2016 1

The defendant is sentenced as provided in pages 2
through 7 of this judgment. The sentence is imposed
pursuant to the Sentencing Reform Act of 1984.
# Count(s) 2, 3, and 4 of the Indictment is/are
dismissed on the motion of the United States.
It is ordered that the defendant must notify the United
States Attorney for this district within 30 days of any
change of name, residence, or mailing address until all
fines, restitution, costs, and special assessments
imposed by this judgment are fully paid. If ordered to
pay restitution, the defendant must notify the court
and United States Attorney of material changes in
economic circumstances.
Leonard T. Strand
Chief United States District Court Judge
Name and Title of Judge

App. 5
s/________________________________
Signature of Judge
January 11, 2019
Date of Imposition of Judgment
Date

1/14/19
PROBATION

G The defendant is hereby sentenced to probation for
a term of:
IMPRISONMENT
# The defendant is hereby committed to the custody
of the Federal Bureau of Prisons to be imprisoned
for a total term of: 120 months on Count 1 of the
Indictment.
# The court makes the following recommendations to
the Federal Bureau of Prisons:
It is recommended that the defendant be
designated to either FMC Rochester,
Minnesota, or FPC Duluth, Minnesota, if
commensurate with the defendant’s security
and custody classification needs.
It is recommended that the defendant
participate in the Bureau of Prisons’ 500-Hour
Comprehensive Residential Drug Abuse
Treatment Program or an alternate substance
abuse treatment program.
# The defendant is remanded to the custody of the
United States Marshal.

App. 6
*

*

*

SUPERVISED RELEASE
# Upon release from imprisonment, the defendant
will be on supervised release for a term of:
5 years on Count 1 of the Indictment.
MANDATORY CONDITIONS OF SUPERVISION
1) The defendant must not commit another federal,
state, or local crime.
2) The defendant must not unlawfully possess a
controlled substance.
3) The defendant must refrain from any unlawful use
of a controlled substance.
The defendant must submit to one drug test within
15 days of release from imprisonment and at least
two periodic drug tests thereafter, as determined by
the court.
4) # The defendant must cooperate in the collection
of DNA as directed by the probation officer.
(Check, if applicable.)
5) G The defendant must comply with the
requirements of the Sex Offender Registration
and Notification Act (34 U.S.C. § 20901, et seq.)
as directed by the probation officer, the Bureau
of Prisons, or any state sex offender registration
agency in the location where the defendant
resides, works, and/or is a student, and/or was
convicted of a qualifying offense. (Check, if
applicable.)

App. 7
6) G The defendant must participate in an approved
program for domestic violence. (Check, if
applicable.)
The defendant must comply with the standard
conditions that have been adopted by this court as well
as with any other conditions on the attached page.
STANDARD CONDITIONS OF SUPERVISION
As part of the defendant’s supervision, the defendant
must comply with the following standard conditions of
supervision. These conditions are imposed because they
establish the basic expectations for the defendant’s
behavior while on supervision and identify the
minimum tools needed by probation officers to keep
informed, report to the court about, and bring about
improvements in the defendant’s conduct and
condition.
1)

The defendant must report to the probation
office in the federal judicial district where the
defendant is authorized to reside within 72
hours of the time the defendant was sentenced
and/or released from imprisonment, unless the
probation officer instructs the defendant to
report to a different probation office or within a
different time frame.

2)

After initially reporting to the probation office,
the defendant will receive instructions from the
court or the probation officer about how and
when the defendant must report to the probation
officer, and the defendant must report to the
probation officer as instructed. The defendant
must also appear in court as required.

App. 8
3)

The defendant must not knowingly leave the
federal judicial district where the defendant is
authorized to reside without first getting
permission from the court or the probation
officer.

4)

The defendant must answer truthfully the
questions asked by the defendant’s probation
officer.

5)

The defendant must live at a place approved by
the probation officer. If the defendant plans to
change where the defendant lives or anything
about the defendant’s living arrangements (such
as the people the defendant lives with), the
defendant must notify the probation officer at
least 10 days before the change. If notifying the
probation officer in advance is not possible due
to unanticipated circumstances, the defendant
must notify the probation officer within 72 hours
of becoming aware of a change or expected
change.

6)

The defendant must allow the probation officer
to visit the defendant at any time at the
defendant’s home or elsewhere, and the
defendant must permit the probation officer to
take any items prohibited by the conditions of
the defendant’s supervision that he or she
observes in plain view.

7)

The defendant must work full time (at least 30
hours per week) at a lawful type of employment,
unless the probation officer excuses the
defendant from doing so. If the defendant does

App. 9
not have full-time employment, the defendant
must try to find full-time employment, unless
the probation officer excuses the defendant from
doing so. If the defendant plans to change where
the defendant works or anything about the
defendant’s work (such as the defendant’s
position or the defendant’s job responsibilities),
the defendant must notify the probation officer
at least 10 days before the change. If notifying
the probation officer at least 10 days in advance
is not possible due to unanticipated
circumstances, the defendant must notify the
probation officer within 72 hours of becoming
aware of a change or expected change.
8)

The defendant must not communicate or
interact with someone the defendant knows is
engaged in criminal activity. If the defendant
knows someone has been convicted of a felony,
the defendant must not knowingly communicate
or interact with that person without first getting
the permission of the probation officer.

9)

If the defendant is arrested or questioned by a
law enforcement officer, the defendant must
notify the probation officer within 72 hours.

10)

The defendant must not own, possess, or have
access to a firearm, ammunition, destructive
device, or dangerous weapon (i.e., anything that
was designed, or was modified for, the specific
purpose of causing bodily injury or death to
another person such as nunchakus or tasers).

App. 10
11)

The defendant must not act or make any
agreement with a law enforcement agency to act
as a confidential human source or informant
without first getting the permission of the court.

12)

As directed by the probation officer, the
defendant must notify third parties of risks that
may be occasioned by the defendant’s criminal
record or personal history or characteristics and
must permit the probation officer to make such
notifications and to confirm the defendant’s
compliance with such notification requirement.

13)

The defendant must follow the instructions of
the probation officer related to the conditions of
supervision.

SPECIAL CONDITIONS OF SUPERVISION
The defendant must comply with the following special
conditions as ordered by the Court and implemented by
the United States Probation Office:
1. The defendant must participate in a mental health
evaluation. The defendant must complete any
recommended treatment program, and follow the
rules and regulations of the treatment program.
The defendant must take all medications prescribed
to the defendant by a licensed medical provider.
2. The defendant must participate in a substance
abuse evaluation. The defendant must complete any
recommended treatment program, which may
include a cognitive behavioral group, and follow the
rules and regulations of the treatment program.
The defendant must participate in a program of

App. 11
testing for substance abuse. The defendant must
not attempt to obstruct or tamper with the testing
methods.
3. The defendant must not use or possess alcohol. The
defendant is prohibited from entering any
establishment that holds itself out to the public to
be a bar or tavern without the prior permission of
the United States Probation Office.
4. The defendant must submit the defendant’s person,
property, house, residence, vehicle, papers,
computers [as defined in 18 U.S.C. § 1030(e)(1)],
other electronic communications or data storage
devices or media, or office, to a search conducted by
a United States Probation Officer. Failure to submit
to a search may be grounds for revocation of release.
The defendant must warn any other occupants that
the premises may be subject to searches pursuant to
this condition. The United States Probation Office
may conduct a search under this condition only
when reasonable suspicion exists that the defendant
has violated a condition of supervision and that the
areas to be searched contain evidence of this
violation. Any search must be conducted at a
reasonable time and in a reasonable manner.
These conditions have been read to me. I fully
understand the conditions and have been provided a
copy of them. Upon a finding of a violation of
supervision, I understand the Court may: (1) revoke
supervision; (2) extend the term of supervision; and/or
(3) modify the condition of supervision.

App. 12
CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary
penalties under the schedule of payments on Sheet 6.

TOTALS

Assessment

JVTA
Assessment1

Fine

Restitution

$100

$0

$0

$0

*

*

*

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay,
payment of the total criminal monetary penalties is due
as follows:
A # Lump sum payment of $
immediately, balance due
*

1

*

100

due

*

Justice for Victims of Trafficking Act of 2015, 18 U.S.C. § 3014.

App. 13

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF IOWA
WESTERN DIVISION
No. CR17-4030-LTS
[Filed October 18, 2017]
________________________________
UNITED STATES OF AMERICA, )
)
Plaintiff,
)
)
vs.
)
)
BOULDER YOUNG a/k/a
)
Boulder Daniel McManigal,
)
)
Defendant.
)
________________________________ )
ORDER ACCEPTING MAGISTRATE JUDGE’S
REPORT AND RECOMMENDATION
REGARDING DEFENDANT’S GUILTY PLEA
I. BACKGROUND
On May 24, 2017, a four-count indictment was filed
against defendant. On October 2, 2017, defendant
appeared before the Honorable Kelly K.E. Mahoney,
United States Magistrate Judge, and entered a plea of
guilty to Count 1 of the indictment. On October 3, 2017,
Judge Mahoney filed a Report and Recommendation
(R&R) in which she recommended that defendant’s
guilty plea be accepted. Doc. No. 38. No objections to

App. 14
the R&R were filed. I therefore undertake the
necessary review of Judge Mahoney’s recommendation
to accept defendant’s plea in this case.
II. APPLICABLE STANDARDS
A district judge must review a magistrate judge’s
R&R in a criminal case under the following standards:
Within fourteen days after being served with a
copy, any party may serve and file written
objections to such proposed findings and
recommendations as provided by rules of court.
A judge of the court shall make a de novo
determination of those portions of the report or
specified proposed findings or recommendations
to which objection is made. A judge of the court
may accept, reject, or modify, in whole or in part,
the findings or recommendations made by the
magistrate judge. The judge may also receive
further evidence or recommit the matter to the
magistrate judge with instructions.
28 U.S.C. § 636(b)(1); see also Fed. R. Crim. P. 59(b).
Thus, when a party objects to any portion of an R&R,
the district judge must undertake a de novo review of
that portion.
Any portions of an R&R to which no objections have
been made must be reviewed under at least a “clearly
erroneous” standard. See, e.g., Grinder v. Gammon, 73
F.3d 793, 795 (8th Cir. 1996) (noting that when no
objections are filed “[the district court judge] would
only have to review the findings of the magistrate judge
for clear error”). As the Supreme Court has explained,
“[a] finding is ‘clearly erroneous’ when although there

App. 15
is evidence to support it, the reviewing court on the
entire evidence is left with the definite and firm
conviction that a mistake has been committed.”
Anderson v. City of Bessemer City, 470 U.S. 564, 573-74
(1985) (quoting United States v. U.S. Gypsum Co., 333
U.S. 364, 395 (1948)). However, a district judge may
elect to review an R&R under a more-exacting standard
even if no objections are filed:
Any party that desires plenary consideration by
the Article III judge of any issue need only ask.
Moreover, while the statute does not require the
judge to review an issue de novo if no objections
are filed, it does not preclude further review by
the district judge, sua sponte or at the request of
a party, under a de novo or any other standard.
Thomas v. Arn, 474 U.S. 140, 150 (1985).
III. DISCUSSION
Because neither party objects to the R&R, I have
reviewed it for clear error. Based on that review, I am
not “left with the definite and firm conviction that a
mistake has been committed.” Anderson, 470 U.S. at
573-74. As such, I hereby accept the R&R without
modification and accept defendant’s plea of guilty in
this case as to Count 1 of the indictment.1
1

United States v. Cortez-Hernandez, 673 F. App’x 587 (8th Cir.
2016) (per curiam), suggests that a defendant may have the right
to de novo review of a magistrate judge’s recommendation to accept
a plea of guilty even if no objection is filed. But see 28 U.S.C.
§ 636(b)(1); Fed. R. Crim. P. 59(b). I will undertake a de novo
review of the R&R if a written request for such review is filed
within seven (7) days after this order is filed.

App. 16
IT IS SO ORDERED.
DATED this 18th day of October, 2017.

s/______________________________
Leonard T. Strand, Chief Judge

App. 17

APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF IOWA
WESTERN DIVISION
No. CR17-4030-LTS
[Filed October 3, 2017]
________________________________
UNITED STATES OF AMERICA, )
)
Plaintiff,
)
)
vs.
)
)
BOULDER YOUNG a/k/a
)
Boulder Daniel McManigal,
)
)
Defendant.
)
________________________________ )
REPORT AND RECOMMENDATION
CONCERNING PLEA OF GUILTY
On October 2, 2017, the above-named Defendant
Boulder Young, by consent (Doc. 34), appeared before
the undersigned United States Magistrate Judge
pursuant to Federal Rule of Criminal Procedure 11,
and entered a plea of guilty to Count 1 of the
Indictment (Doc. 1). After cautioning and examining
the Defendant under oath concerning each of the
subjects mentioned in Rule 11, the court determined
that the guilty plea was knowledgeable and voluntary,
and the offense charged was supported by an
independent basis in fact containing each of the

App. 18
essential elements of the offense. The court therefore
RECOMMENDS that the plea of guilty be accepted
and the Defendant be adjudged guilty.
At the commencement of the Rule 11 proceeding,
the Defendant was placed under oath and advised that
if he answered any questions falsely, he could be
prosecuted for perjury or for making a false statement.
He also was advised that in any such prosecution, the
Government could use against him any statements he
made under oath.
The court asked a number of questions to ensure the
Defendant’s mental capacity to enter a plea. The
Defendant stated his full name, his age, and the extent
of his schooling. The court inquired into the
Defendant’s history of mental illness and addiction to
narcotic drugs. The court further inquired into whether
the Defendant was under the influence of any drug,
medication, or alcoholic beverage at the time of the plea
hearing. From this inquiry, the court determined that
the Defendant was not suffering from any mental
disability that would impair his ability to make a
knowing, intelligent, and voluntary plea of guilty to the
charge.
The Defendant acknowledged that he had received
a copy of the Indictment, and he had fully discussed the
charge with his attorney.
The court determined that the Defendant was
pleading guilty under a plea agreement with the
Government. After confirming that a copy of the
written plea agreement was in front of the Defendant
and his attorney, the court determined that the

App. 19
Defendant understood the terms of the plea agreement.
The court summarized the plea agreement, and made
certain the Defendant understood its terms.
The court explained to the Defendant that because
the plea agreement provided for dismissal of charges if
he pleaded guilty,1 a presentence report would be
prepared and a district judge would consider whether
or not to accept the plea agreement. If the district judge
decided to reject the plea agreement, then the
Defendant would have an opportunity to withdraw his
plea of guilty and change it to not guilty.
The Defendant was advised also that after his plea
was accepted, he would have no right to withdraw the
plea at a later date, even if the sentence imposed was
different from what the Defendant or his counsel
anticipated.
The court summarized the charge against the
Defendant, and listed the elements of the crime. The
court determined that the Defendant understood each
and every element of the crime, and the Defendant’s
counsel confirmed that the Defendant understood each
and every element of the crime charged.
The court elicited a full and complete factual basis
for all elements of the crime charged in Count 1 of the
Indictment to which the Defendant was pleading
guilty.

1

The parties have entered into a plea agreement. Defendant has
agreed to plead guilty to Count 1 of the Indictment. Pursuant to
the plea agreement, Counts 2, 3, and 4 will be dismissed at the
time of sentencing.

App. 20
The court advised the Defendant of the
consequences of his plea, including the maximum fine,
the maximum term of imprisonment, the mandatory
minimum term of imprisonment, the possibility that
restitution could be ordered, and term of supervised
release.
With respect to Count 1, the Defendant was
advised that the maximum fine is $10,000,000; the
maximum term of imprisonment is life; the mandatory
minimum term of imprisonment is 10 years; the
maximum period of supervised release is life; and the
minimum period of supervised release is five years.
The Defendant also was advised that the court is
obligated to impose a special assessment of $100.00,
which the Defendant must pay. The Defendant also
was advised of the collateral consequences of a plea of
guilty. The Defendant acknowledged that he
understood all of the above consequences.
The court explained supervised release to the
Defendant, and advised him that a term of supervised
release would be imposed in addition to the sentence of
imprisonment. The Defendant was advised that there
are conditions of supervised release, and that if he were
found to have violated a condition of supervised
release, then his term of supervised release could be
revoked and he could be required to serve in prison all
or part of the term of supervised release without credit
for time previously served on supervised release.
The court also explained to the Defendant that the
district judge would determine the appropriate
sentence for him at the sentencing hearing. The

App. 21
Defendant confirmed that he understood the court
would not determine the appropriate sentence until
after the preparation of a presentence report, which the
parties would have the opportunity to challenge. The
Defendant acknowledged that he understood the
sentence imposed might be different from what his
attorney had estimated. Defendant also acknowledges
that his plea agreement contains an appeal waiver, and
he agrees to waive his appeal rights as set out in that
waiver. The Defendant was advised that parole has
been abolished.
The Defendant indicated he had conferred fully with
his counsel and he was fully satisfied with his counsel.
The Defendant’s attorney indicated that there is a
factual basis for the guilty plea.
The Defendant was advised fully of his right to
plead not guilty, or having already entered a not guilty
plea to persist in such plea, and to have a jury trial,
including:
1.

The right to assistance of counsel at every
stage of the pretrial and trial proceedings;

2.

The right to a speedy, public trial;

3.

The right to have his case tried by a jury
selected from a cross-section of the
community;

4.

That he would be presumed innocent at each
stage of the proceedings, and would be found
not guilty unless the Government could prove
each and every element of the offense beyond
a reasonable doubt;

App. 22
5.

That the Government could call witnesses
into court, but the Defendant’s attorney
would have the right to confront and crossexamine these witnesses;

6.

That the Defendant would have the right to
see and hear all witnesses presented at trial;

7.

That the Defendant would have the right to
subpoena defense witnesses to testify at the
trial, and if he could not afford to pay the
fees and costs of bringing these witnesses to
court, then the Government would be
required to pay those fees and costs;

8.

That the Defendant would have the privilege
against self incrimination; i.e., he could
choose to testify at trial, but he need not do
so, and if he chose not to testify, then the
court would instruct the jury that the
Defendant had a constitutional right not to
testify;

9.

That any verdict by the jury would have to be
unanimous;

10.

That he would have the right to appeal, and
if he could not afford an attorney for the
appeal, then the Government would pay the
costs of an attorney to prepare the appeal.

The Defendant also was advised of the rights he
would waive by entering a plea of guilty. The
Defendant was told there would be no trial, he would
waive all the trial rights just described, and he would

App. 23
be adjudged guilty without any further proceedings
except for sentencing.
The Defendant confirmed that his decision to plead
guilty was voluntary and was not the result of any
promises, other than plea agreement promises; and his
decision to plead guilty was not the result of any
threats, force, or anyone pressuring him to plead guilty.
The Defendant confirmed that he still wished to
plead guilty, and he pleaded guilty to Count 1 of the
Indictment.
The court finds the following with respect to the
Defendant’s guilty plea:
1.

The guilty plea is voluntary, knowing, not
the result of force, threats or promises,
except plea agreement promises, and the
Defendant is fully competent.

2.

The Defendant is aware of the maximum
punishment.

3.

The Defendant knows his jury rights.

4.

The Defendant has voluntarily waived his
jury rights.

5.

There is a factual basis for the plea.

6.

The Defendant is, in fact, guilty of the crime
to which he is pleading guilty.

The Defendant was advised that a written
presentence investigation report would be prepared to
assist the court in sentencing. The Defendant was told
that he and his counsel would have an opportunity to

App. 24
read the presentence report before the sentencing
hearing and to object to the contents of the report, and
he and his counsel would be afforded the opportunity to
present evidence and be heard at the sentencing
hearing.
The Defendant was advised that the failure to file
written objections to this Report and Recommendation
within 14 days of the date of its service would bar him
from attacking this court’s Report and
Recommendation, which recommends that the assigned
United States District Judge accept the Defendant’s
plea of guilty. Defendant was advised that he may
waive any right to file written objections to this Report
and Recommendation by filing a written waiver form.
The “Waiver of Objections to Report and
Recommendation”2 form is available on the Court’s web
page.
United States v. Cortez-Hernandez, 2016 WL
7174114 (8th Cir. 2016) (per curiam), suggests that a
Defendant may have the right to de novo review of a
magistrate judge’s recommendation to accept a plea of
guilty even if no objection is filed. But see 28 U.S.C.
§ 636(b)(1); Fed. R. Crim. P. 59(b). The district court
judge will undertake a de novo review of the Report
and Recommendation if a written request for such
review is filed within fourteen (14) days after this order
is filed.

2

This form can be found at two locations on the Court’s web page:
www.iand.uscourts.gov, ((1)Clerk of Court, Forms, Criminal Forms,
G.1 Plea Documents, WaiverOfObjectionsForm.002.002.pdf;
(2) Judges’ Information, Magistrate Mahoney, Standing Forms).

App. 25
DONE AND ENTERED at Sioux City, Iowa, this
3rd day of October, 2017.
s/________________________________
Kelly K.E. Mahoney
United States Magistrate Judge
Norther District of Iowa

